APPENDIX TO THE PETITION FOR A
WRIT OF CERTIORARI
TABLE OF CONTENTS
APPENDIX A
Judgment Entry of the Mahoning County Court of
Common Pleas of July 6, 2018..................................2a
APPENDIX B
Opinion of the Mahoning County Court of Common
Pleas of July 6, 2017................................................10a
APPENDIX C
Opinion of the Supreme Court of the State of Ohio of
July 22, 2020............................................................12a

2a
Appendix A
IN THE COURT OF COMMON PLEAS
MAHONING COUNTY, OHIO STATE OF OHIO
CASE NO. 2015-CR-1132
State of Ohio
Plaintiff
v.
Lance Hundley
Defendant
JUDGE MAUREEN A. SWEENEY
Judgment Entry
Case called for imposition of sentence
pursuant to Ohio Revised Code 2929.03 and 2929.04
this 5th day ofJ une, 2013. At the trial of this case
the Defendant was found guilty beyond a reasonable
doubt on May 21, 2018 to the following:
Guilty of Count 1: Aggravated Murder; Ohio
Revised Code 2903.01(A)(F), Fe|ony/ Life/ Death;
with the Death Penalty Specification Ohio Revised
Code 2929.04(A)(5)&2941.14;
Guilty of Count 2: Attempted Murder; Ohio
Revised Code Z903.02(A)(D)&2923.02(A), Felony of
the First (1") Degree;
Guilty of Count 3: Felonious Assault; Ohio
Revised Code 2903.11(A)(1)(D), Felony of the Second
(2") Degree;
Guilty of Count 4: Aggravated Arson; Ohio

3a
Revised Code 2909.02(A)(1)(B)(1)(2), Felony of the
First (1") Degree;
Guilty of Count 5: Aggravated Arson; Ohio
Revised Code 2909.02(A)(2)(B)(1)(3), Felony of the
Second (2") Degree;
The Court received said verdicts and rendered
judgment therein.
On May 30, 2018, at the second phase of this
trial proceeding, the jury unanimously recommended
that death be imposed upon the defendant. Present
in open Court this date were the prosecuting
attorneys, the defendant and his stand by counsel.
The Defendant was afforded the opportunity to
speak, and the prosecuting attorney was also given
the opportunity to speak. Victims' representatives
were present in the Court and were not permitted to
address the Court before sentence was imposed.
As required by Ohio Revised Code 2923.03(D)
(3), this Court has considered all the relevant
evidence raised at trial, the testimony, other
evidence, arguments of counsel and the unsworn
closing statement of Defendant, and the trial jury's
recommendation that the sentence of death be
imposed. The defendant did not allocate. The Court
is required by law to deliberate and to perform an
independent judicial analysis in a separate finding
as to the existence of any mitigating factors as set
forth in 2929.04(B) of the revised code as well as any
other factors that are relevant to the issue of
whether the Defendant should be sentenced to
death. The Court must consider the mitigating
factors; weigh the aggravating circumstance against
the mitigating factors to determine whether the

4a
State of Ohio proved beyond a reasonable doubt that
the aggravating circumstance does in fact outweigh
the mitigating factors. The Court was not provided
any mitigating factors by the Defendant. The Court
did examine any mitigating factors as revealed
during trial, including any presented involving the
nature and circumstance ofthe offense, the
statements and arguments of counsel, the evidence,
the testimony of witnesses, exhibits offered into
evidence. The Court finds no mitigating factors as
relates to the nature and circumstance of the offense
charged. The Court did consider in accordance with
O.R.C. 2929.04(B) and 2929.04(B)(7). The mitigating
factors listed therein.
The Court has weighed all of the mitigating
factors. When considered individually and together,
they have at best minimal mitigating value.
Separately or combined they provide very little
weight to lessen the moral culpability ofthe
Defendant. The Court finds that the mitigating
factors pale and are dwarfed in comparison to the
aggravating circumstance. Therefore the Court finds
that the aggravating circumstances outweighs the
mitigating factors beyond a reasonable doubt. The
Court accepts the Jury's recommendation. The Court
orders that Lance Hundley is by law hereby
sentenced to death for the aggravated murder of
Erika Huff. The victim's family representatives
made a statement to the Court after the Court
announced the sentence of death. The Court further
sentences the Defendant on the remaining counts
ofthe indictment for which Lance Hundley was found
guilty.

5a
For purposes of sentencing Count 3 merges
with Count 2 and Count 5 merges with Count 4.
Guilty of Count 2: Attempted Murder; Ohio Revised
Code 2903.02(A)(D)&29Z3.02(A), Felony of the First
(1") Degree - ELEVEN (11) YEARS IN PRISON;
Guilty of Count 4: Aggravated Arson; Ohio Revised
Code 2909.02(A)(1)(B)(1)(2), Felony of the First (1")
Degree - ELEVEN (11) YEARS IN PRISON; Counts
2 and 4 are to run consecutively to each other for a
total of Twenty Two (22) years and consecutively to
the sentence of death.
The Court Finds that
consecutive sentences are warranted pursuant to
2924.14(C)(4): The Court finds that consecutive
sentences are necessary to protect the public from
future crime and to punish the offender, and that the
consecutive sentences are not disproportionate to the
seriousness of the offenders conduct and to the
danger the offender poses to the public. The Court
also finds that: at least two multiple offenses were
committed as part of one or more courses of conduct,
and the harm caused by two or more of the multiple
offenses so committed was so great or unusual that
no single prison term for any of the offenses
committed as part of any of the courses of conduct
adequately reflects the seriousness of the offenders
conduct. A writ of execution of the death penalty
shall issue forthwith, which shall be directed to the
Sheriff of Mahoning County directing him, within 30
days, in a private manner, to convey the Defendant,
Lance Hundley, to the Ohio Department of
Rehabilitation and Corrections, where the
Defendant is ordered to be held in custody
until the 6th day of November, 2018 at which time,

6a
and not later than midnight of such date, this
sentence shall be carried out and the Defendant
shall be put to death in accordance with law.
The warden of the correctional institution in
which the sentence is to be carried out or another
person selected by the director of Rehabilitation and
Corrections shall ensure that the death sentence is
executed, all as provided in Ohio Revised Code
2949.22(A)(B).
The Defendant was advised of his appellate
rights pursuant to Criminal Rule 32 and was further
advised pursuant to 2929.19(B)(3), 2953.08 and
2967.28. Defendant's counsel was ordered to file
proper notices to pursue Defendant's appeal.
DATE
SWEENEY

(SIGNED)

JUDGE

MAUREEN

CLERK: COPIES TO ALL COUNSEL OR
UNREPRESENTED PARTIES

7a
Appendix B
IN THE COURT OF COMMON PLEAS
MAHONING COUNTY, OHIO STATE OF OHIO
CASE NO. 2015-CR-1132
State of Ohio
Plaintiff
v.
Lance Hundley
Defendant
JUDGE MAUREEN A. SWEENEY
SENTENCING OPINION
On May 21, 2018, a jury found Lance Hundley
guilty of one (1) count of aggravated murder in
violation of O.R.C. 2903.01(A)(F), one count of
attempted murder in violation of O.R.C. 2903.02(A)
(D) &2923.02(A), one count of felonious assault in
violation of O.R. C 2903.11(A)(1)(D), one count of
aggravated arson in violation of O.R.C. 2909.02(A)(1)
(B)(1)(2) and one count of aggravated arson in
violation of O.R.C. 2909.02(A)(2)(B)(1)(3). The
aggravated murder involved the death of Erika Huff.
This charge included a specification that the
aggravated murder was part of a course of conduct
involving the purposeful killing of or attempt to kill
two or more persons by the defendant.
The jury returned guilty verdicts on all counts
and the specification. Lance Hundley declined a

8a
presentence investigation and/or a mental health
evaluation. Lance Hundley was fully advised of all
his rights before the Court proceeded to the
sentencing phase. On May 30, 2018, this Court
commenced the sentencing phase of the trial. Prior
to commencement, Defendant Lance Hundley
declared that he wanted to represent himself. The
State objected. Attorney Greg Meyers, who had been
representing the Defendant urged this court to allow
him to represent himself since he was not using this
as a delay tactic. The Court reviewed a series of
questions with the Defendant making sure he
understood the perils he might be facing. Further
the Court had the Defendant execute a Judgment
Entry entitled Waiver of Counsel before proceeding
any further.
This court permitted the State to use the trial
exhibits during the sentencing phase with the
exception of two. There was no objection from the
Defendant. The prosecution proceeded with an
opening statement. The Defendant declined to make
an opening statement. The State proceeded with
minimum evidence and the Defendant produced no
mitigation evidence. Counsel for the State presented
its closing argument and the Defendant presented
his closing argument. At approximately 4:15 on May
30, 2018, the jury returned a sentencing verdict
finding that the State of Ohio proved beyond a
reasonable doubt that the aggravating circumstance
in the specification in Count One outweighed the
mitigating factors. The jury verdict indicated the
penalty of death. The jury was appropriately
sequestered during the trial phase and the

9a
sentencing phase deliberations. No overnight
sequestering was necessary. The jury's verdict of
death on the specification in Count one constitutes a
recommendation to the Court.
This Court is required to perform an
independent review of this matter pursuant to Ohio
law. As required by O.R.C.§ 2929.03 and based upon
the sentencing verdict of the jury, this Court must
now weigh the aggravating circumstance, that the
aggravated murder was part of a course of conduct
involving the purposeful killing of or attempt to kill
two or more persons by the defendant and the
mitigating factors to determine whether the jury
recommendation of death should be the final
sentence of this Court. In Ohio, a jury verdict of
death is a recommendation to the Court. When such
recommendation is made, the trial judge must
deliberate and render the final sentence. Guidance is
provided by case law and pursuant to the
requirements of Chapter 2929 of the Ohio Revised
Code. Ohio law requires that the Court set forth its
specific findings as to the existence of any mitigating
factors pursuant to O.R.C. §2929.04(B) as well as
any other mitigating factors, the aggravating
circumstances the defendant was found guilty of
committing and the reasons for the Court's
reasoning behind the weight process.
Regarding the aggravating circumstance, the
evidence as to the attempted killing of Denise
Johnson came from the victim herself. She described
being beaten with a hammer and then set in a room
next to her dead daughter while the room was being
lit on fire. However these actions and the aggravated

10a
murder of Erika Huff are not aggravating
circumstances and are not considered by the Court.
The court recognizes that mitigating factors are
factors about an individual which weigh in favor of
one of the life sentences is the appropriate sentence.
The Defendant produced no mitigating factors. The
Court did not permit the victim's family to present a
victim's impact statement but did however, permit
victim's family to address the Court after the Court
announced its sentence. There is no doubt that the
aggravating circumstance in this case deserves great
weight. There is nothing mitigating about the
offenses committed. The Court is to weigh all the
mitigating factors and determine if the aggravating
circumstance outweighs the mitigating factors
beyond a reasonable doubt. However, the Court was
not provided with any mitigating factors. Therefore,
the Court will consider Mr. Hundley's background,
character and history he has amassed during his life
through the use of two competency evaluations that
were completed and previously stipulated to and
moved into evidence.
The Defendant is currently forty-eight years of
age. He is either a high school graduate or got his
GED depending on which report you reference. He
did not serve in the armed forces. He has never been
married and has no children. He has no history of
mental illness. Mr. Hundley does have a prior
criminal record both as a juvenile and an adult. He
has been to prison on a sex offense. The Court has
weighed these mitigation factors. When considered
alone or together, they have minimal value. They
have little if any weight compared to the moral

11a
culpability of the defendant. The Court has also
reviewed all of the other factors enumerated in
O.R.C. §2929.04(B). The Court finds none of these
factors are applicable. The Court finds they hold no
weight compared to the aggravating circumstance.
After much deliberation, consideration and analysis,
and review of the evidence, the relevant testimony,
the unsworn closing argument of the defendant, and
allocution of the Defendant, the Court finds that the
aggravating circumstance in Court One outweighs
the mitigating factors by proof beyond a reasonable
doubt.
The
Court,
therefore,
accepts
the
recommendation of the jury. The Court orders that
Lance Hundley is hereby sentenced to death.
I hereby certify that a copy of the foregoing
opinion was delivered to Attorney Greg Meyers,
Attorney
Doug
Taylor,
Attorney
Dawn
Cantalamessa, Attorney Jennifer McLaughlin, and
Attorney Michael Yacavone this 6th of June, 2018. I
also certify that a copy of the foregoing opinion was
duly mailed by ordinary United States Mail to the
Clerk of Courts of the Supreme Court of Ohio, 65 S.
Front Street, Columbus, Ohio 43215 this day.
Judge,
(Signed)
MAUREEN A. SWEENEY

12a

State v. Hundley, 2020-Ohio-3775
Supreme Court of Ohio
February 12, 2020, Submitted; July 22, 2020,
Decided
No. 2018-0901
Opinion
KENNEDY, J.
[*P1] On November 6, 2015, appellant, Lance
Hundley, murdered Erika Huff and attempted to
murder her mother, Mrs. Denise Johnson. After a
trial, a Mahoning County jury convicted him of
aggravated murder with a course-of-conduct
specification, attempted murder, felonious assault,
and two counts of aggravated arson. Following the
jury's recommendation, the trial court sentenced
Hundley to death on the aggravated-murder count.
[*P2] We now review Hundley's direct appeal of
right and, for the following reasons, affirm his
convictions and sentence of death.

I. BACKGROUND
A. Hundley moves in with Huff
[*P3] Huff lived at 44 Cleveland [**2] Street in

13a
Youngstown, Ohio. She had a progressive form of
multiple sclerosis and could no longer walk. She was
entirely dependent on a wheelchair, and a Hoyer lift
was used to transfer her from her bed to the
wheelchair. Huff received daily care and assistance
from nurse aides employed by Comfort Keepers. The
nurse aides would assist Huff with the daily chores
such as cooking and cleaning, getting in and out of
bed, and getting dressed and undressed. She also
wore a medical-alert necklace that was monitored by
Guardian Medical. If the alert was activated,
Guardian would call Huff's mother, Mrs. Johnson.
An ambulance would also be dispatched to the
address provided by Guardian.
[*P4] Huff's house at 44 Cleveland Street was one
story with an attached garage. The front door was in
the center of the house and opened into the front
room. To the left of the door was a living area and to
the right, a dining area. The dining area contained a
large oval table. A hallway from the front room led to
the back of the house. The kitchen was behind the
dining area, with an entrance off the right-side of the
hallway. At the end of the kitchen, opposite the
entrance, was a door that led to the attached garage.
[**3] Continuing down the hallway, at the end on
the left, was Huff's bedroom. And to the right, across
from Huff's bedroom, was a spare room in which the
back door was located.
[*P5] In the summer of 2015, Hundley moved from
Washington, D.C., to Youngstown. Huff, who had a
daughter with Hundley's brother, offered him a room

14a
in her house at 44 Cleveland Street sometime in the
fall. According to Mrs. Johnson, Hundley had been
living in Huff's house for approximately three to four
weeks by early November. Mrs. Johnson was asked
by the prosecutor whether the relationship between
Huff and Hundley had become strained, however,
the court sustained an objection to the question. The
prosecutor then inquired of Mrs. Johnson whether
Huff and Hundley were getting along. She testified
that they got along but that their relationship was
strained.
[*P6] According to A'Shawntay Heard, a nurse aide
who had cared for Huff for years, Huff's demeanor
changed after Hundley moved in, especially when he
was around. Heard testified that Hundley was a
controlling person and Huff would hold "a lot of stuff
in" and not be as open as she had previously been.
When Hundley would leave the house, Huff would
say things to Heard, [**4] including that "she was
just fed up with everything." Heard testified that she
felt very uncomfortable when Hundley was at the
house. She also said that Huff had lost caregivers
because of Hundley.

B. Events of November 5 and 6, 2015
1. Huff's medical alert
[*P7] Heard was on duty at Huff's house on
November 5, 2015. She worked a four-hour shift that
ended at 10:00 or 11:00 p.m. Heard testified that she

15a
completed the typical evening-shift tasks and helped
Huff get into bed. She made sure that Huff had
access to her cell phone, snacks, and a grabbing aid.
At Huff's request, Heard tucked the cash Huff had
received from her monthly disability check
underneath her thighs, between the bedsheet and
Huff's body. Heard testified that the grabbing aid
was not bent when she left the house that evening.
[*P8] According to Heard, Hundley was in and out
of the house all evening. She testified, "I was in the
kitchen cooking for [Huff] * * * he was * * * making
me feel uncomfortable, coming towards me. I had
asked him please back away from me. And he did
back away from me once I asked him. Like, he's
trying to just hit on me." Hundley told Heard that he
"needed some type of mental help and he wasn't
from the area." [**5] Heard gave him the name of a
local counseling center.
[*P9] Just before she left the house, Heard gave
Huff her personal cellphone number. This was
against company policy, but Heard said that she
gave Huff her number because Heard "had felt that
whole day [that] something just wasn't right or
something was going to happen." She felt
uncomfortable because Hundley "was in the home * *
* that night and he was drinking." When Heard left,
Hundley was not there.
[*P10] At 2:01 a.m. on November 6, Huff's medicalalert necklace was activated and an ambulance was
dispatched to 44 Cleveland Street. Brittany Koch

16a
and her partner, licensed emergency medical
technicians ("EMTs"), received a dispatch for an
"unknown medical alarm." Koch testified that they
received an address but no further information, such
as a name, gender, or age. When they arrived at 44
Cleveland Street, they noted that there was one
light-colored car in the driveway and the lights were
on behind the drawn blinds; they knocked on the
front door and identified themselves. Initially nobody
responded, so the EMTs knocked on doors and
windows. Still receiving no response, Koch
attempted to open the front door, but it was locked.
[*P11] The EMTs had [**6] been at the house a
couple of minutes and were preparing to check the
back of the house when a tall African-American man
—who was later identified by Koch as Hundley—
opened the front door. Koch testified that the man
was wearing a red hat and a dark hooded sweatshirt.
The man told her that he had accidentally triggered
the medical alarm and nothing was wrong. Under
the belief that the man was the patient, Koch and
her partner told him to call back if he needed help.
According to Koch, the man was calm and polite and
did not seem anxious.

2. Hundley attacks Mrs. Johnson
[*P12] Shortly after the activation of Huff's medical
alert, Guardian called Mrs. Johnson. Mrs. Johnson
testified that she got to Huff's house no more than
ten minutes after receiving the call. Mrs. Johnson

17a
parked in the driveway behind a white car that she
did not recognize. She also stated she did not see an
ambulance. As she unlocked the front door, she noted
that the top lock was locked, which was unusual
because it was the practice of the nurse aides to lock
only the bottom lock.
[*P13] Mrs. Johnson entered the house and found
Hundley standing inside with a gasoline can. She
smelled gas, and when she asked Hundley where
Huff was, [**7] he said that she was in the back.
Mrs. Johnson told Hundley that she was there to
check on Huff and to let first responders in because
the medical-alert necklace had been activated.
Hundley told Mrs. Johnson that the first responders
had already gone. Mrs. Johnson then picked up the
gasoline can, which Hundley had set on the floor,
and took it to the attached garage through a door in
the kitchen.
[*P14] When Mrs. Johnson reentered the kitchen,
Hundley attacked her. Hundley pinned Mrs. Johnson
between the refrigerator and the door to the garage
and began to hit her on the head with a hammer.
Mrs. Johnson testified that during the attack,
Hundley told her he had killed Huff and would also
kill her and Huff's brother. When Mrs. Johnson
asked why, Hundley told her that Huff "wanted to
have sex with [him] and she was disrespecting [his]
brother." Hundley also expressed to Mrs. Johnson
his belief that Huff and her family just "weren't into
him." At one point, Mrs. Johnson told Hundley to
stop and reached for him, but Hundley admonished

18a
her to not "touch [him] with those bloody hands and
get [his] white $150 shirt all dirty." Mrs. Johnson
testified that the shirt was white, and it had "some
kind [**8] of emblem on it or something."
[*P15] Hundley continued to beat Mrs. Johnson
with the hammer. But he then grabbed a kitchen
knife and held it to Mrs. Johnson's face while
choking her and dragging her through the house.
Mrs. Johnson lost consciousness.
[*P16] When Mrs. Johnson regained consciousness,
she was lying on the floor of Huff's bedroom next to
her daughter. Mrs. Johnson saw flames burning at
her feet and around Huff's body. Mrs. Johnson sat up
and tried to brush the fire away from her feet and
from Huff. But Hundley saw Mrs. Johnson moving
around, so he returned to the bedroom, took Huff's
grabbing aid, and tried to hit Mrs. Johnson with it to
force her to stay down. Mrs. Johnson was able to
take the tool away from Hundley, who then retrieved
some alcohol and splashed it on her face. Not
knowing where Hundley had gone, Mrs. Johnson
crawled to a window. As the room filled with smoke,
Mrs. Johnson attempted to escape through the
window by dislodging an air-conditioning unit.

3. Rescue of Mrs. Johnson and discovery of Huff's
body
[*P17] Mrs. Johnson's husband, Lonnie Johnson,
was concerned when Mrs. Johnson did not return

19a
from Huff's home. He drove to Huff's house and was
surprised to find the front [**9] door was locked
because it was never locked. He heard a "wrestling"
noise coming from inside the house and thought he
heard Mrs. Johnson say something like "get out of
here." At 2:56 a.m., Mr. Johnson called 9-1-1.
[*P18] Youngstown Police Officers Michael David
Medvec Jr. and Ken Bielik arrived at the scene at
3:06 a.m. They spoke to Mr. Johnson and then
walked around the perimeter of the house twice
looking for signs of a burglary. They found no signs
of illegal entry. As the officers were about to unlock
the front door (using Mr. Johnson's key), the officers
heard a "scuffling noise * * * like something[ was]
being pulled towards the back of the house." They
immediately ran to the back.
[*P19] A third Youngstown Police officer, Timothy
Edwards, joined Officers Medvec and Bielik. As the
three officers reached the back of the house, they
heard "the air conditioner being rattled" and then
realized that the room was on fire. They heard
pounding on the window and screams for help. Once
they had pulled Mrs. Johnson to safety, Officer
Medvec could see into the bedroom and noticed a
body, partially clothed, lying on the floor and on fire.
He testified that the person appeared to be dead.
[*P20] Officer Edwards [**10] saw the back door
open and a taller black male with a bald head look
around. According to Officer Edwards, upon seeing
the officers, the man "immediately closed the door

20a
and stepped back inside." Officer Medvec also
testified that he "saw a hand, what was clearly a
man's hand, pull the door back shut."
[*P21] Officers Medvec and Edwards entered the
house three times, but twice had to retreat because
of heavy smoke. Officer Medvec testified that there
was no evidence of a break-in or burglary. They
found Huff's body face up on her bedroom floor. The
body was clothed only in underwear, a gasolinesoaked shirt, and socks.
[*P22] The third time the officers entered the
house, they went through the front door and found
Hundley. He was lying on the floor, by his gym bag,
in close proximity to the front door, halfway
underneath the dining-room table. Officer Medvec
testified that neither officer had seen him or anyone
else the two previous times they had entered the
house. When he was taken out of the house, Hundley
was motionless but uninjured and free from soot or
other debris from the fire. Both Officer Edwards and
Detective Sergeant Anthony Vitullo, who arrived on
the scene shortly after Officers Medvec, [**11]
Edwards, and Bielik, testified that they did not
observe any injuries or visible marks on Hundley.
[*P23] After Mrs. Johnson identified her attacker to
an investigating officer, Hundley was the sole
suspect in Huff's death. Ambulances took Hundley
and Mrs. Johnson to St. Elizabeth Youngstown
Hospital. Officer Bielik accompanied Hundley to the
hospital.

21a

4. Huff's autopsy
[*P24] Dr. Joseph Ohr, a deputy coroner for
Mahoning County, conducted Huff's autopsy. But
because Dr. Ohr died before Hundley's trial, Dr.
Joseph Felo, the deputy medical examiner for
Cuyahoga County, testified as a substitute witness.
Dr. Felo reviewed Huff's autopsy report, toxicology
report, medical history, and photographs from the
scene and the autopsy.
[*P25] Referring to the autopsy report, Dr. Felo
explained that Huff died from "two mechanisms"—
blunt trauma of her head, face, chest, and abdomen
in conjunction with ligature strangulation—and her
death was not instantaneous. Dr. Felo also stated
that because there was no sign of smoke or soot in
her nostrils or her airways down to the lungs, the
fire began after Huff's death.
[*P26] Dr. Felo testified that Huff suffered bluntforce trauma while she was still alive, resulting in
significant [**12] bruising and facial and head
lacerations, but that the impacts on her body were
not immediately fatal. However, Dr. Felo noted that
Huff had been struck with enough force to tear a
major vein that supplies or collects blood from the
intestines, leading to "massive internal bleeding
around the belly." The internal bleeding would have
made Huff "shocky and somewhat weaker during her
dying process."

22a

[*P27] The blunt-force trauma contributed to Huff's
death, according to Dr. Felo, in conjunction with the
strangulation. Dr. Felo noted that there was
evidence of petechial hemorrhages on the whites of
Huff's eyes, which indicated strangulation. He also
noted that a black cord around Huff's neck "was
tight enough to leave an impression."
[*P28] Dr. Felo testified that the bruising from the
blunt-force
trauma
occurred
before
the
strangulation. Additionally, he explained that the
amount of blood that had accumulated in Huff's body
and the bruising that had developed indicated that
"the beating t[ook] a while."
[*P29] The autopsy revealed many other nonlethal
injuries. Huff had been beaten severely on her face
and head, resulting in multiple significant bruises
and cuts. Her body showed evidence of blunt impacts
[**13] to the trunk and extremities, including rib
fractures, the massive internal bleeding, and
bruising and lacerations on the front and back of her
upper arms and on her chest. She had several
defensive wounds on her forearms and hands.
[*P30] Dr. Felo also noted areas on Huff's body
where her skin had sloughed off or slipped away as a
result of gasoline being poured on her body. He also
pointed out an area of brown discoloration on Huff's
side, which he said was indicative of a "thermal
injury from her body being set on fire after she died
and there's some charring of the skin." Dr. Felo

23a
testified, to a reasonable degree of medical certainty,
that Huff was already dead when the fire occurred.

5. Mrs. Johnson's injuries
[*P31] Mrs. Johnson arrived at St. Elizabeth's
emergency room at 3:38 a.m. on November 6.
Cortney Birchak, a registered nurse who treated
Mrs. Johnson later in the morning, testified that
Mrs. Johnson had "sustained significant * * *
multiple head injuries from a hammer." Birchak saw
multiple lacerations and areas of stapling and
bruising on Mrs. Johnson's face. There was swelling
on her face. According to Birchak, Mrs. Johnson was
in such severe pain that Birchak could not
completely [**14] clean the dried blood off Mrs.
Johnson's face and hands. Mrs. Johnson's hospital
records indicate that she also suffered a concussion
with loss of consciousness and a fracture to her left
hand.

6. Hundley's arrest
[*P32] Detective Sergeant Ronald Rodway of the
Youngstown Police Department arrived at the crime
scene after Hundley and Mrs. Johnson had been
taken to the hospital. Detective Rodway walked
through the house and then spoke to fire-department
personnel and arson investigators. Next, Detective
Rodway and his partner went to the hospital hoping
to talk to Mrs. Johnson.

24a

[*P33] When Detective Rodway arrived at the
hospital, EMT Koch was in the emergency room on
another emergency call. Rodway asked EMT Koch if
she recognized the patient in one of the trauma bays.
EMT Koch said yes and confirmed that he was the
man who had opened the door at the house at 44
Cleveland Street on the EMTs' earlier run to that
address.
[*P34] Detective Rodway eventually spoke with
Mrs. Johnson, who identified Hundley as her
attacker. Hundley was discharged from the hospital
into police custody around 2:00 p.m. on November 6,
2015. He initially waived his rights under Miranda v.
Arizona, 384 U.S. 436, 86 S.Ct. 1602, 16 L.Ed.2d 694
(1966), and voluntarily talked to detectives. At the
start of [**15] the interview, Hundley was focused
on papers in front of him, and detectives had to ask
him to put the documents aside while they spoke.
Before the detectives asked any questions about
Huff's death and the attack on Mrs. Johnson,
Hundley asked, "What do you all think is going on?"
[*P35] Hundley told investigators that he had
known Huff for approximately eight years, that they
had a good relationship, and that he had been living
at Huff's house for about a month. Hundley also said
that he was in and out of the house on Thursday
night. He said that he had been at the Southern
Tavern and acknowledged that he had had one shot
of Ciroc and a beer but denied that he had been
intoxicated. When asked whether Huff was awake or

25a
sleeping when Hundley returned from the bar,
Hundley said, "[T]his here is where it gets tricky."
[*P36] At this point, Hundley asked the detectives
whether he was under arrest (they said yes) and
then said that he had "kind of figured out something
from police officers. Erika died?" Hundley then
invoked his right to counsel. However, Hundley
volunteered that he had been "choked out" by a
stranger who broke into Huff's house early Friday
morning. Then, after the investigators confirmed
[**16] he wanted counsel, Hundley said: "That's it.
You all [are] detectives, you all do your jobs. * * * I'm
arrested for murder apparently."

C. Evidentiary analysis
1. DNA testing
[*P37] The Ohio Bureau of Criminal Investigation
("BCI") received DNA standards from Huff, Mrs.
Johnson, and Hundley, and a forensic scientist took
cuttings from each swab for testing against evidence
obtained from the crime scene.
[*P38] BCI conducted DNA testing on swabs from
the claw, the head, and the handle of the hammer
used to attack Mrs. Johnson. The hammer handle
contained a mixture of DNA contributions, with Mrs.
Johnson as a major contributor. The claw and head
also contained Mrs. Johnson's DNA profile. BCI
forensic scientist David Miller explained to the jury

26a
that an item containing a large amount of one
person's DNA may also contain a small amount of
another person's DNA, which might be drowned out
by the larger contribution. Further Y-STR testing
(which looks only at the Y chromosome along a DNA
strand) on the hammer's handle revealed some male
DNA, but there was not a sufficient amount of DNA
for comparison.
[*P39] BCI also tested blood samples from the
handle of Huff's grabbing aid, which was bent when
it was collected [**17] from the house. The handle
yielded a Y-STR profile consistent with Hundley,
with a frequency of 1 in 621 unrelated males. The
grab end and the black discs at the grab end each
yielded a single profile that was consistent with Mrs.
Johnson. The frequency of the profile was 1 in 1
sextillion 282 quintillion for all three locations.
[*P40] BCI also tested the bloody white Hilfiger
polo shirt that Hundley had been wearing. The polo
shirt had "YACHT CLUB New York" on the front
upper-right side and a large crest with HILFIGER
underneath the crest on the front upper-left side.
The polo shirt was found in Hundley's gym bag in
the dining area near the front door of the house.
[*P41] The inside collar of the polo shirt yielded a
mixture of profiles, and BCI could not exclude
Hundley or Mrs. Johnson as possible contributors.
The statistic for that mixture of profiles was 1 in
4,307,000. Assuming random testing, this result
means that BCI would test "around 4 million people

27a
before [it] would find someone who could * * * fit into
that mixture of DNA profiles." Two other stains on
Hundley's polo shirt contained a profile consistent
with Mrs. Johnson, to an expected frequency of 1 in
1 sextillion 282 quintillion. [**18]
[*P42] DNA testing of Huff's fingernail clippings
yielded a mixture of profiles including Huff's and
Hundley's. STR testing, another form of DNA
testing, found a profile consistent with Hundley to
an expected frequency of 1 in 300,000, and Y-STR
testing confirmed that he was a contributor.

2. Arson investigation
[*P43] Brian Peterman, an investigator from the
State Fire Marshal's office, examined 44 Cleveland
Street on November 6, 2015. He arrived shortly after
6 a.m. Peterman found minimal damage outside the
house, mainly minor smoke staining around the
window from which the air-conditioning unit had
been removed. A strong odor of gasoline was still
present when he entered the house. After examining
the inside of the house, Peterman concluded that the
fire had originated in Huff's bedroom. He found an
irregular burn pattern that began on Huff's bed and
"continued down from the bed onto the floor in an
irregular shape."
[*P44] While sorting through the fire debris, fire
investigators collected a metal knife blade, clothing,
a cigarette lighter, a swatch of carpet from the floor

28a
near Huff's bed, and other debris. Peterman also
collected a gasoline can that he found in the garage.
The coroner's office provided [**19] Peterman with
the t-shirt that Huff had been wearing, and
Youngstown police also provided him with the other
clothes taken from the house, which included
Hundley's white Hilfiger polo shirt and white t-shirt.
[*P45] Christa Rajendram, Ph.D., the forensiclaboratory supervisor at the State Fire Marshal's
office, identified 13 items that were tested, including
items that Peterman had collected from the house
and items collected by the coroner and the police. Dr.
Rajendram testified to a reasonable degree of
scientific certainty that gasoline was detected on
every item. Hundley's white Hilfiger polo shirt and
white t-shirt also tested positive for chloroform.

D. Defense case
[*P46] The defense presented testimony from two
witnesses. Hundley testified that Huff had been his
brother's former girlfriend and he had known her for
about eight years After moving to Youngstown from
Washington, D.C., Hundley stated he initially lived
with his brother. However, that living arrangement
became crowded and Hundley asked Huff if he could
stay with her.
[*P47] Hundley testified that Huff was in a
wheelchair and that he had been in her bedroom a
couple times when the nurse aide used the Hoyer lift

29a
to move Huff. Hundley explained [**20] that a
Hoyer lift is used to transfer a person who is
paralyzed or unable to move from a bed to a
wheelchair or stretcher.
[*P48] Hundley then testified to the events of
November 5, 2015. He said he returned to Huff's
house around 8:00 p.m. after being at his cousin's
house and stopping at a nearby convenience store to
buy two 24-ounce beers. According to Hundley, he
and Huff chatted until around 9:00 or 9:30 p.m.,
when Heard put Huff to bed. He smoked a "blunt of
marijuana" with Huff before she went to bed. Around
9:30 or 10:00 p.m., Hundley went to a nearby bar
until 11:00 or 11:30 p.m., when he returned to Huff's
house. Hundley testified that when he returned,
Huff was still awake so he went into her room and
talked for a while.
[*P49] Hundley claimed he then went to the living
room and fell asleep on the couch. He testified that
the next thing he remembered "was being woke up
with somebody strangling [him] out from behind."
He said that he blacked out and woke up on the
kitchen floor. Hundley got up and walked toward the
back of the house, by Huff's bedroom. Hundley
testified that at that point, he saw a dark-skinned,
African-American male about Hundley's height leave
Huff's bedroom carrying [**21] a gas can.
[*P50] Hundley checked on Huff only to find that
she was on fire; he was not sure that she had a
pulse. At that point, Mrs. Johnson entered the front

30a
door. Before he realized who was at the door,
Hundley grabbed the hammer from a kitchen
drawer. Hundley said that he had a knife in his
other hand, but that he dropped both the hammer
and knife on a table when he saw Mrs. Johnson.
According to Hundley, he saw Mr. Johnson's truck
parked behind Mrs. Johnson's car in the driveway
and the intruder was sitting in the truck's passenger
seat. Hundley testified that Mrs. Johnson had a gas
can in her hand and that she told him, "Lance, it's
not too late. We can come up with something to tell
the police." Mrs. Johnson tried to get Hundley to sit
on the couch, but he began to hit her with the
hammer because he "didn't know what she was going
to do from that point." In the struggle, Mrs. Johnson
and Hundley ended up on the floor of Huff's room
until Hundley kicked her to get away.
[*P51] Hundley decided to leave through the back
door. But when he saw Mr. Johnson and two other
individuals that he did not recognize, he quickly
closed and locked the back door. Hundley testified
that he then changed out [**22] of the white Hilfiger
polo shirt and t-shirt he was wearing and put them
in his gym bag, which he dropped on the dining room
floor. The next thing he remembered was waking up
after having passed out. Hundley said he also passed
out in the ambulance.
[*P52] On cross-examination, Hundley denied
answering the door to Koch around 2:00 a.m.
Hundley testified that he had never seen Koch until
she testified in his trial and that the man she

31a
described was the same person that he had just
described that he had seen. He also admitted that he
did not give the police the details of his version of
events, including his claim that Mr. and Mrs.
Johnson conspired to murder Huff.
[*P53]
The defense also introduced expert
testimony from Dr. Alfred Elsworth Staubus, an
emeritus faculty member at the Ohio State
University College of Pharmacy, to suggest that
someone used chloroform to incapacitate Hundley on
November 6. Dr. Staubus testified about "the use of
chloroform to temporarily incapacitate a person." He
explained that although Hundley's toxicology report
from November 6, 2015, did not note the presence of
chloroform, hospitals do not test for it. He also noted
that Hundley's blood-alcohol level was .105, which
[**23] is above the legal limit for driving of .080.
According to Dr. Staubus, .105 is not a particularly
high blood-alcohol level and would not have rendered
Hundley unconscious. Dr. Staubus averred that
chloroform begins in liquid state but is so volatile
that it immediately vaporizes and emits aerosol
fumes. He testified that it would not be inconsistent
for chloroform to be present on clothing worn by an
individual who is using it or by the person against
whom the chloroform was administered. However,
Dr. Staubus testified that holding a rag soaked in
chloroform over the nose and mouth of a person can
cause incapacitation.

II. PROCEDURAL HISTORY AND SENTENCING

32a

[*P54] A grand jury indicted Hundley on five
counts. Count One charged Hundley with
aggravated murder with prior calculation and design
(R.C. 2903.01(A)), Count Two charged him with
attempted murder (R.C. 2903.02/2923.02(A)), Count
Three charged him with felonious assault (R.C.
2911.02(A)(1)(d)), and Counts Four and Five charged
him with aggravated arson (R.C. 2909.02(A)). The
aggravated-murder count included one deathpenalty specification under R.C. 2929.04(A)(5), which
alleged that Hundley had committed the murder of
Huff as part of a course of conduct involving the
purposeful killing of or attempt to kill two or [**24]
more individuals.
[*P55] He pleaded not guilty to all counts, including
the capital specification, and the case was tried
before a jury. The court denied Hundley's motion for
acquittal following the state's case and his renewed
request for acquittal before submitting the case to
the jury. Within four hours, the jury returned guilty
verdicts on all counts and the capital specification.
[*P56] The court granted Hundley's oral motion to
represent himself for purposes of mitigation, and the
mitigation hearing was held on May 30, 2015. The
state offered into evidence all the exhibits from the
guilt phase, except an exhibit that was a picture of
Huff, and then rested. Hundley then rested without
presenting any evidence.
[*P57]

The jury unanimously recommended a

33a
sentence of death as to Count One, and the court
accepted the recommendation and imposed the death
sentence. As to the noncapital offenses, the court
merged Count Two with Count Three, and Count
Four with Count Five, and then sentenced Hundley
to 11 years' imprisonment for the attempted-murder
conviction in Count Two and to a consecutive 11-year
prison term for the aggravated-arson conviction in
Count Four.

III. ANALYSIS
A. Sufficiency of the evidence
[*P58] In [**25] proposition of law No. 1, Hundley
argues that the state failed to prove beyond a
reasonable doubt that he committed the aggravated
murder of Huff with prior calculation and design.
Hundley argues that there was a lack of sufficient
evidence to establish prior calculation and design.
[*P59] HN1 "In reviewing the sufficiency of the
evidence to support a criminal conviction, we must
determine 'whether, after viewing the evidence in
the light most favorable to the prosecution, any
rational trier of fact could have found the essential
elements of the crime beyond a reasonable doubt.'
(Emphasis sic.)" State v. Martin, 151 Ohio St.3d 470,
2017-Ohio-7556, 90 N.E.3d 857, ¶ 109, quoting
Jackson v. Virginia, 443 U.S. 307, 319, 99 S.Ct. 2781,
61 L.Ed.2d 560 (1979). "'Proof beyond a reasonable
doubt' is proof of such character that an ordinary

34a
person would be willing to rely and act upon it in the
most important of the person's own affairs." R.C.
2901.05(E). A sufficiency challenge asks whether the
evidence adduced at trial "is legally sufficient to
support the jury verdict as a matter of law." State v.
Lang, 129 Ohio St.3d 512, 2011-Ohio-4215, 954
N.E.2d 596, ¶ 219. In applying this well-known
standard, we are cognizant of the jury's
responsibility to "fairly * * * resolve conflicts in the
testimony, to weigh the evidence, and to draw
reasonable inferences from basic facts to ultimate
facts." Jackson, 443 U.S. at 319, 99 S.Ct. 2781, 61
L.Ed.2d 560. And we recognize that the jury is the
sole [**26] judge of a witness's credibility. State v.
Antill, 176 Ohio St. 61, 67, 197 N.E.2d 548 (1964).
[*P60] HN2 Proof of "prior calculation and design"
requires proof of "a scheme designed to implement
the calculated decision to kill." State v. Cotton, 56
Ohio St.2d 8, 11, 381 N.E.2d 190 (1978). "The
amount of care or time that the defendant spends in
planning and analyzing the crime are not critical
factors in themselves; however, they '"must amount
to more than momentary deliberation."'" State v.
Jones, 91 Ohio St.3d 335, 345, 2001- Ohio 57, 744
N.E.2d 1163 (2001), quoting State v. Taylor, 78 Ohio
St.3d 15, 19, 1997- Ohio 243, 676 N.E.2d 82 (1997),
quoting the 1973 Legislative Service Commission
comments to R.C. 2903.01.
[*P61] HN3 Three factors guide our review of
Hundley's claim that the evidence was legally
insufficient to prove prior calculation and design: "(1)

35a
Did the accused and victim know each other, and if
so, was that relationship strained? (2) Did the
accused give thought or preparation to choosing the
murder weapon or murder site? (3) Was the act
drawn out or 'an almost instantaneous eruption of
events'?" Taylor at 19, quoting State v. Jenkins, 48
Ohio App.2d 99, 102, 355 N.E.2d 825 (8th Dist.1976).
We have "never set forth a bright-line test for
discerning the presence or absence of prior
calculation and design but instead undertake[ ] a
unique analysis of the facts of each case." State v.
Franklin, 97 Ohio St.3d 1, 2002-Ohio-5304, 776
N.E.2d 26, ¶ 56. The evidence relevant to each
Taylor factor is set forth below.

1. Did the accused and the victim know each other,
and was the relationship strained?
[*P62] Undisputed evidence demonstrates [**27]
that Huff and Hundley knew each other. Huff had a
child with Hundley's brother, and according to
Hundley, they had known each another for
approximately eight years. It was this relationship
that caused Huff to offer Hundley a room in her
home when Hundley's living situation with his
brother was not working. At the time of Huff's
murder, Hundley had been living with Huff for three
to four weeks.
[*P63] Hundley told investigators that he and Huff
had a good relationship, but that evidence was
controverted by the testimony of Heard and Mrs.

36a
Johnson. Heard testified that Huff's demeanor
changed after Hundley moved in and that the
change was particularly noticeable when Hundley
was around. Due to Hundley's controlling nature,
Huff would hold "a lot of stuff in" and was not as
open with Heard as she had previously been. When
Hundley was not in the house, Huff expressed her
frustration with the situation to Heard. Hundley's
presence in the house made Heard very
uncomfortable and also was the cause for the loss of
other caretakers. On the last evening Heard saw
Huff alive, Heard made sure that Huff had access to
her cell phone and her grabbing aid, which Heard
testified was not bent when she left [**28] the
house. At Huff's request, Heard placed the cash from
Huff's monthly disability check underneath her
thighs, between the bedsheet and Huff's body. And
just before she left for the evening Heard gave Huff
her personal cellphone number, even though it was
against company policy. According to Heard, she had
felt that day that something wasn't right or was
going to happen. Heard felt uncomfortable because
Hundley "was in the home * * * that night and he
was drinking."
[*P64]
Mrs. Johnson testified that Huff and
Hundley generally got along but that their
relationship was strained. Hundley argues that an
objection to Mrs. Johnson's testimony about the
strained relationship was sustained at trial. He is
correct that the court sustained an objection to one
question: "Around November 6 when this happened,
had their relationship become strained?" However,

37a
Mrs. Johnson later testified that the relationship
had become strained in response to a different
question that was asked without an objection. Mrs.
Johnson also testified that Hundley expressed his
belief that Huff and her family just "weren't into
him." Mrs. Johnson explained that her impression of
this statement was that her family was not including
[**29] him: "I guess that's what he felt maybe." Mrs.
Johnson also testified that during Hundley's attack
on her that he stated that he killed Huff because
Huff had been disrespecting his brother by allegedly
wanting to have sex with him.

2. Did Hundley give thought or preparation to
choosing the murder weapon or murder site?
[*P65] The evidence demonstrates that Huff had a
progressive form of multiple sclerosis that prevented
her from walking. The nurse aides needed to use a
Hoyer lift to transfer her from her bed to her
wheelchair. Wheelchair bound, she received daily
care and assistance from nurse aides. Huff relied on
a medical-alert necklace if there was an emergency
and a nurse aide was not present; when the alert
was pressed, an ambulance was dispatched and Mrs.
Johnson was called.
[*P66]
Hundley acknowledged that Huff was
severely disabled and that she was unable to walk or
dress herself; he also testified that he was present
when a nurse aide moved Huff between her bed and
her wheelchair with a Hoyer lift. He returned to the

38a
house not long after Heard left knowing Huff would
be alone and physically incapable of leaving.

3. Was the act drawn out or
instantaneous eruption of events?"

"an

almost

[*P67] HN4 The [**30] final Taylor factor requires
the evidence to demonstrate that there was more
than just a "momentary" thought of deliberation.
Taylor, 78 Ohio St.3d at 22, 676 N.E.2d 82. Hundley
introduced the testimony of Dr. Staubus who stated
that chloroform is used to temporarily incapacitate a
person. The doctor also testified that while
chloroform is so volatile that it immediately
evaporates, it is not inconsistent for chloroform to be
present on the clothing of the person using it or the
person against whom it was administered. Christa
Rajendram testified that Hundley's polo shirt and tshirt tested positive for chloroform.
[*P68] The evidence also shows that Hundley
inflicted numerous blunt-force injuries on Huff's
body while she was alive. Huff was severely beaten
on her face and head and on her trunk and
extremities, causing rib fractures, massive internal
bleeding, and bruising on the front and back of her
upper arms and chest, and she had several defensive
wounds on her forearms and hands. Dr. Felo rejected
the assertion that the beating was instantaneous;
rather, he determined that "[t]he beating t[ook] a
while because of the amount of blood that [wa]s
accumulated in her body and the fact that the

39a
bruising [wa]s developing."
[*P69] After the [**31] severe and extensive
beating Hundley inflicted upon Huff, Hundley then
strangled Huff with a black cord wrapped tightly
around her neck. Dr. Felo referred to photographs
taken during the autopsy and pointed out that there
was an indentation on Huff's neck caused by the
ligature. He noted that the cord "was tight enough to
leave an impression." Moreover, Dr. Felo stated
strangulation was also indicated by the evidence of
petechial hemorrhages on the whites of Huff's eyes.
He opined that it would have taken "several
minutes, up to hours" for Huff to have died from the
injuries caused by the beating, although "[t]he
strangulation would [have been] seconds to minutes
as far as a timeframe." He testified that her death
"certainly was not an immediate death." Dr. Felo's
expert opinion, to a reasonable degree of medical
certainty, was that Huff's death was not
instantaneous and that Huff was already dead when
the fire occurred.
[*P70] Huff's medical-alert necklace was activated
at 2:01 a.m. Koch, one of the EMTs who responded to
the emergency call, testified that a tall AfricanAmerican man—who the EMT later identified as
Hundley—opened the front door. According to Koch,
the man was calm and polite [**32] and did not
seem anxious.
[*P71] Mrs. Johnson arrived after the EMTs had
left. She testified that she unlocked the bottom lock

40a
and that the top lock was uncharacteristically
locked. Upon entering the house, she smelled
gasoline and found Hundley inside with a gasoline
can. Hundley did not leave; he instead waited for
Mrs. Johnson to return from placing the gasoline can
in the attached garage and then attacked her,
striking her in the head with a hammer. And again,
after attacking Mrs. Johnson, Hundley did not leave
but changed out of his bloody clothes and placed
them in his gym bag.
[*P72] Construing the foregoing evidence in a light
most favorable to the prosecution, there is sufficient
evidence to support the Taylor factors and the jury's
verdict that Hundley committed aggravated murder
with prior calculation and design. Despite Hundley's
testimony that he and Huff had a good relationship,
the jury also heard the testimony from Heard and
Mrs. Johnson to the contrary. It was within the
province of the jury when considering the conflicts in
the testimony to weigh the credibility of the
witnesses and reject Hundley's version of the
relationship. From Heard's and Mrs. Johnson's
testimony, the jury [**33] could have reasonably
concluded that the relationship between Hundley
and Huff was strained. Hundley had a controlling
nature and Huff's demeanor changed when Hundley
was around. And Huff expressed her frustration with
the living situation when he was not present. It was
concern for Huff's welfare, because of the strain in
the relationship with Hundley, that caused Heard to
violate her employer's policy and provide Huff with
her cell-phone number. Moreover, the jury could

41a
have inferred that Huff did not trust Hundley as she
had Heard place her cash under her thigh when
Heard left for the evening. The strain in the
relationship was also shown by Mrs. Johnson's
testimony regarding Hundley's animosity toward her
family.
[*P73] The jury reasonably could have found that
Hundley gave thought to the murder site and to the
means by which he would kill Huff. Hundley waited
until the nurse aide had left for the evening and
Huff was alone before returning to the house. He
knew that Huff was unable to defend herself and
that she was helpless. She was debilitated by
multiple sclerosis and depended upon a nurse aide
for the essentials of daily living, including using a
Hoyer lift to get from her bed to [**34]
her
wheelchair, which she relied on for mobility. The
medical-alert necklace was her sole lifeline in the
event of an emergency when the nurse aide was not
at the house.
[*P74] The evidence is overwhelming that the
attack on Huff was not an instantaneous eruption of
events. First, it was reasonable for the jury to infer
from the presence of chloroform on both of Hundley's
shirts that Hundley sought to incapacitate Huff. The
testimony of Dr. Felo established that the beating
Hundley inflicted upon Huff was lengthy, severe, and
extensive and that Huff had time to try to defend
against the brutal attack. Huff was still alive after
the savage beating but instead of stopping, Hundley
made the conscious choice to strangle her tightly

42a
around the neck with a black cord. The nature and
extent of the injuries established that Huff's murder
was not immediate but was carried out over a period
of time.
[*P75] Further, the evidence demonstrates that
Hundley was determined to follow through on his
murderous course of action. The jury reasonably
could have found that Hundley locked both the top
and bottom door locks after the EMTs left in order to
attack Huff and prevent anyone from entering the
house and coming [**35] to Huff's aid. He also
obtained gasoline and poured it on Huff, even though
she was dead, and set her body on fire, resulting in
thermal injuries and her skin sloughing off, to cover
up the evidence of the murder. See State v. Young,
7th Dist. Belmont No. 96-BA-34, 1999 Ohio App.
LEXIS 4365, 1999 WL 771070 (evidence that victim's
body was partially concealed was relevant fact to
finding of prior calculation and design); State v.
Jackson, 8th Dist. Cuyahoga No. 44401, 1982 Ohio
App. LEXIS 15382, 1982 WL 5955 (evidence that
defendant wiped clean the victim's doorknobs after
the murder supported jury's finding of prior
calculation and design). Further, Hundley could have
chosen to leave the house after beating and
strangling Huff; he instead attacked Mrs. Johnson.
He then could have again chosen to leave the house,
but instead he changed out of his bloody clothes and
placed them in his gym bag.
[*P76] HN5 We have found sufficient evidence of
prior calculation and design in cases in which a

43a
murder was not instantaneous "but instead w[as]
carried out over a period of time." Franklin, 97 Ohio
St.3d 1, 2002-Ohio-5304, 776 N.E.2d 26, at ¶ 60. We
have likewise found that prior calculation and design
was proved when the evidence established that
despite having time to abandon a murderous attack,
the
defendant
demonstrated
an
"apparent
determination to follow through on a specific course
of action," [**36] which supported a finding that he
had previously "adopted a plan to kill." State v. Toth,
52 Ohio St.2d 206, 213, 371 N.E.2d 831 (1977),
modified on other grounds, State v. Muscatello, 55
Ohio St.2d 201, 378 N.E.2d 738 (1978), paragraph
one of the syllabus; see also Taylor, 78 Ohio St.3d at
21, 676 N.E.2d 82, quoting State v. Taylor, 8th Dist.
Cuyahoga No. 65711, 1995 Ohio App. LEXIS 4998,
1995 WL 663267, * 5 (Nov. 9, 1995) (prior calculation
and design shown by evidence that Taylor "'made a
conscious decision to walk over to where [the injured
victim] was crawling face down on the floor and shot
him four more times'").
[*P77] When viewed in a light most favorable to the
prosecution the evidence demonstrates that Huff's
death was the result of a well-thought-out plan and
the attack was drawn out. Hundley could have
chosen to abandon his course of action at any point
but failed to do so. See State v. Conway, 108 Ohio
St.3d 214, 2006-Ohio-791, 842 N.E.2d 996, ¶ 45
(HN6 "Pursuit of a wounded, helpless victim also has
been held to be evidence of prior calculation and
design"). There was sufficient evidence that
Hundley's actions "went beyond a momentary

44a
impulse and show[ed] that he was determined to
complete a specific course of action." Id. at ¶ 46.
[*P78] Viewing the evidence in a light most
favorable to the prosecution, a jury could rationally
find beyond a reasonable doubt that Hundley
murdered Huff with prior calculation and design. We
therefore reject Hundley's first proposition of law.

B. Manifest weight of the evidence
[*P79] Hundley also [**37] contends, in proposition
of law No. 2, that his aggravated-murder conviction
was against the manifest weight of the evidence.
[*P80] HN7 A verdict can be against the manifest
weight of the evidence even though legally sufficient
evidence supports it. State v. Robinson, 162 Ohio St.
486, 487, 124 N.E.2d 148 (1955). For a manifestweight challenge, "'[t]he court, reviewing the entire
record, weighs the evidence and all reasonable
inferences, considers the credibility of witnesses and
determines whether in resolving conflicts in the
evidence, the jury clearly lost its way and created
such a manifest miscarriage of justice that the
conviction must be reversed and a new trial
ordered.'" State v. Thompkins, 78 Ohio St.3d 380,
387, 1997- Ohio 52, 678 N.E.2d 541 (1997), quoting
State v. Martin, 20 Ohio App.3d 172, 175, 20 Ohio B.
215, 485 N.E.2d 717 (1st Dist.1983). A manifestweight challenge can be successful "'only in the
exceptional case in which the evidence weighs

45a
heavily against the conviction.'" Id., quoting Martin
at175.
[*P81] Hundley contends that the state's evidence
"satisfies none of the Taylor factors" and therefore
that the jury lost its way when it found that he
purposely murdered Huff with prior calculation and
design. See Taylor, 78 Ohio St.3d at 19, 676 N.E.2d
82. We do not find Hundley's argument persuasive.
As explained above, we disagree with Hundley and
instead find that all three Taylor factors were met in
this case.
[*P82] This is not an "'exceptional case in which the
[**38]
evidence weighs heavily against the
conviction.'" Thompkins, 78 Ohio St.3d at 387, 678
N.E.2d 541, quoting Martin, 20 Ohio App.3d at 175,
485 N.E.2d 717. Proposition of law No. 2, therefore,
lacks merit.

C. Request for standby counsel and waiver of counsel
[*P83] During the suppression and mitigation
hearings, Hundley waived counsel and represented
himself. Hundley argues, in proposition of law No. 4,
that the trial court violated his constitutional rights
when it denied him standby counsel for the
suppression hearing. And in proposition of law No. 3,
Hundley maintains that the trial court erred by
allowing him to waive counsel for the mitigation
hearing despite his "questionable mental health
history" and despite that he was in a "fit of pique"

46a
when he requested to represent himself.

1. Relevant facts
[*P84] Hundley was arraigned on November 17,
2015, and entered a plea of not guilty. At a pretrial
hearing on December 9, Hundley told the court that
he wished to fire his appointed attorneys. The court
explained that he had no right to fire his attorneys,
denied Hundley's request, and ordered his attorneys
to notify the court if the attorney-client relationship
had broken down beyond repair. In January 2016, at
another pretrial, defense counsel informed the court
that on Hundley's behalf, [**39] they had filed a
motion for a competency and sanity evaluation, and
pending the results, they might enter a not-guiltyby-reason-of-insanity plea. At the next hearing on
April 13, 2016, defense counsel sought to withdraw
from representation because it had "become readily
apparent" that the attorney-client relationship had
"completely broken down." Counsel also informed the
court that the competency and sanity reports were
complete and that Hundley had been found to be
sane and competent to stand trial. One week later,
the trial court granted defense counsel's motion to
withdraw and appointed two new attorneys to
represent Hundley.
[*P85] At a hearing on July 13, 2016, Hundley
informed the court that he did not want to continue
with his second set of attorneys. The court denied
this request and ordered Hundley to be placed at the

47a
Twin Valley Behavioral Healthcare—Timothy B.
Moritz Forensic Unit ("TVBH") for observation and a
second competency evaluation.
[*P86] The court reconvened on December 16, 2016,
for a competency hearing. After testimony, the court
determined that Hundley was competent. At that
juncture, Hundley told the court that he was
"thinking about representing [him]self." A brief
discussion [**40] ensued between the court and
Hundley regarding the purpose of standby counsel
and the fact that before he could waive his right to
counsel, the court would have to ask him 52
questions to ensure that he understood what he was
getting himself into." The court agreed to address
the issue of Hundley's waiver of counsel at a
January 2017 pretrial hearing.
[*P87] On January 11, 2017, Hundley told the court
that his attorneys had answered all of his questions
and that he wanted to keep his current counsel.
Hundley remained satisfied with his counsel for the
next seven months, which the court confirmed at
many of the hearings during that time period.
[*P88] On August 7, 2017, defense counsel informed
the court that Hundley wanted to represent himself
and that Hundley was prepared to go forward with
the suppression hearing scheduled for that day.
Hundley confirmed counsel's statement, telling the
court that he wanted to represent himself. The trial
court questioned Hundley regarding his request to
waive counsel. The court's questions focused on

48a
Hundley's understanding of his right to counsel, his
lack of a legal education, his familiarity with the
criminal-justice system and the rules applicable to a
criminal [**41] trial, and the possibility that the
jury would negatively perceive his lack of an
attorney.
[*P89] The court explored other likely pitfalls of
self-representation,
asking
whether
Hundley
understood that he would be held to the same
standard as if he were a licensed attorney, that the
court would not function as his lawyer, and that he
would be waiving certain appellate claims by
representing himself. The court also inquired into
his awareness of any applicable defenses to the
charges. The court ensured that Hundley understood
the role of standby counsel. The trial court briefly
informed him of the charges he was facing, the
potential sentences should he be found guilty, and
his constitutional right to remain silent. Ultimately,
the court accepted Hundley's request to waive
counsel, and he represented himself for the
suppression hearing.
[*P90] Yet when the court presented Hundley with
a written waiver-of-counsel form after the
suppression hearing, Hundley indicated that he had
changed his mind and wanted counsel to represent
him. The court accepted his withdrawal of the
waiver and denied defense counsel's request to
reopen the suppression hearing.
[*P91] At a hearing on September 6, 2017, Hundley

49a
again [**42] asked to waive his right to counsel.
However, during the waiver colloquy, the court
agreed to appoint new defense counsel from a
different county, and Hundley withdrew his waiver.
But before the hearing ended, Hundley changed his
mind again, and after conducting a waiver colloquy,
the court found that he had knowingly, intelligently,
and voluntarily waived his right to counsel.
[*P92] The next day, the court held a hearing and
told Hundley that an attorney from the Ohio Public
Defender's Office was able to represent him.
Hundley agreed to meet with the new attorney. At
the next hearing on September 18, Hundley told the
court that he still wished to represent himself
despite having met with the assistant public
defender. The court reaffirmed that his prior counsel
were considered standby counsel and would be
available in that capacity, unless he withdrew the
waiver.
[*P93]
Hundley represented himself until
November 1, 2017, when the court appointed an
assistant public defender, Greg Meyers, to act as
lead counsel, and one of Hundley's prior attorneys,
Doug Taylor, to act as second chair. Meyers and
Taylor represented Hundley through the trial phase,
up until the jury reached a verdict. At most of [**43]
the status hearings between November 2017 and the
beginning of the trial, the court verified that
Hundley was continuing to work well with Meyers
and Taylor; each time, Hundley said that he was.

50a
[*P94] On May 21, 2018, the jury returned its
verdict, finding Hundley guilty of all charges and the
course-of-conduct specification. On May 30, the day
the mitigation hearing was scheduled to begin,
Hundley informed the trial court that he wanted to
represent himself for the mitigation hearing. The
trial court told Hundley that his request was
untimely, but when Hundley pressed the issue and
stated that he was prepared to move forward with
the mitigation hearing, the court responded: "That's
fine. You know what, I will * * * [a]nd when you get
convicted of death, I don't want to hear about it."
[*P95] At the request of the prosecutor and defense
counsel, the court conducted a waiver colloquy. The
court went through the same questions and
warnings as it had during the waiver colloquy prior
to the suppression hearing. Hundley represented
himself through the mitigation hearing. He did not
offer any mitigating evidence and declined to give an
unsworn statement, but he did give a closing
argument.

2. Analysis [**44]
[*P96]
"'HN8 The Sixth Amendment * * *
guarantees that a defendant in a state criminal trial
has an independent constitutional right of selfrepresentation and that he may proceed to defend
himself without counsel when he voluntarily, and
knowingly and intelligently elects to do so.'" (Ellipsis
in Neyland.) State v. Neyland, 139 Ohio St.3d 353,

51a
2014-Ohio-1914, 12 N.E.3d 1112, ¶ 71, quoting State
v. Gibson, 45 Ohio St.2d 366, 345 N.E.2d 399 (1976),
paragraph one of the syllabus. Therefore, in any
criminal case involving a serious offense, "when a
criminal defendant elects to proceed pro se, the trial
court must demonstrate substantial compliance with
Crim.R. 44(A) by making a sufficient inquiry to
determine whether the defendant fully understood
and intelligently relinquished his or her right to
counsel." State v. Martin, 103 Ohio St.3d 385, 2004Ohio-5471, 816 N.E.2d 227, paragraph two of the
syllabus.
[*P97] HN9 The trial court must ensure that the
defendant is "made aware of the dangers and
disadvantages of self-representation," Faretta v.
California, 422 U.S. 806, 835, 95 S.Ct. 2525, 45
L.Ed.2d 562 (1975), and that "'he [knew] what he
[was] doing and his choice [was] made with eyes
open,'" id., quoting Adams v. United States ex rel.
McCann, 317 U.S. 269, 279, 63 S.Ct. 236, 87 L.Ed.
268 (1942). "The determination of whether there has
been an intelligent waiver of right to counsel must
depend, in each case, upon the particular facts and
circumstances surrounding that case, including the
background, experience, and conduct of the accused."
Johnson v. Zerbst, 304 U.S. 458, 464, 58 S.Ct. 1019,
82 L.Ed. 1461 (1938).

a. Request for standby counsel for suppression
hearing

52a
[*P98] Hundley [**45] contends, in his fourth
proposition of law, that the trial court denied him
standby counsel for the suppression hearing and
thereby violated his right to counsel under both the
state and federal Constitutions.1Link to the text of
the note
[*P99] HN10 We have "recognized that '[o]nce the
right to counsel is properly waived, trial courts are
permitted to appoint standby counsel to assist the
otherwise pro se defendant.'" (Emphasis added.)
State v. Obermiller, 147 Ohio St.3d 175, 2016-Ohio1594, 63 N.E.3d 93, ¶ 50, quoting Martin, 103 Ohio
St.3d 385, 2004-Ohio-5471, 816 N.E.2d 227, at ¶ 28.
Therefore, there is no independent right, under state
or federal law, to standby counsel in the event that a
criminal defendant chooses self-representation. See
State v. Jackson, 1st Dist. Hamilton No. C-180160,
2019-Ohio-2933, ¶ 9 ("while trial courts may well
decide to appoint standby counsel, defendants do not
have an automatic right entitling them to standby
counsel").
[*P100] In any event, the record does not support
Hundley's claim that the trial court denied him
standby counsel for the suppression hearing. On the
contrary, the trial court ensured that Hundley
understood the purpose of standby counsel, and
Hundley conferred with defense counsel prior to and
immediately after the suppression hearing.
[*P101]
We therefore reject Hundley's fourth
proposition of law.

53a

b. Self-representation for the mitigation hearing
[*P102] In his third proposition of law, Hundley
contends [**46] that the court erred by granting his
request to waive counsel for the mitigation hearing
while he was "(1) in a fit of pique (2) likely under the
duress of a personality disorder and (3) under the
influence of a fair amount of goading and sarcasm
from the trial court."
[*P103] HN11 A capital defendant must make a
timely and unequivocal request if he or she wishes to
waive counsel because "'[w]hile the right to counsel
attaches unless affirmatively waived, the right to
self-representation does not attach until asserted.'"
State v. Perry, 9th Dist. Summit No. 25271, 2011Ohio-2242, ¶ 11, quoting Sandoval v. Calderon, 241
F.3d 765, 774 (9th Cir.2000). And because "courts
[must] indulge in every reasonable presumption
against waiver" of the right to counsel, a strict
standard applies when considering the sufficiency of
a defendant's invocation of the right to selfrepresentation. Brewer v. Williams, 430 U.S. 387,
404, 97 S.Ct. 1232, 51 L.Ed.2d 424 (1977). An
unequivocal request may not be a "momentary
caprice or the result of thinking out loud," Adams v.
Carroll, 875 F.2d 1441, 1445 (9th Cir.1989), "or the
result of frustration," Neyland, 139 Ohio St.3d 353,
2014-Ohio-1914, 12 N.E.3d 1112, at ¶ 73. Whether a
defendant voluntarily, intelligently, and knowingly
waived his right to counsel is "determined by the

54a
totality of circumstances." State v. Moore, 81 Ohio
St.3d 22, 31, 1998- Ohio 441, 689 N.E.2d 1 (1998).
Whether a defendant's waiver of counsel was
knowing, voluntary, and intelligent necessarily
requires a thorough review of the record.
[*P104] Hundley asserts that his request to [**47]
waive counsel for the mitigation hearing came
"immediately following a guilty verdict in a death
penalty [case]" and that the trial court should
therefore not have granted it. But the record
contradicts Hundley's contention; he asked to
represent himself on the day of the mitigation
hearing, nine days after the verdict. By then,
Hundley had been represented by counsel
throughout most of the pretrial proceedings and the
entire trial phase, but he had also repeatedly sought
to represent himself in earlier stages of the
proceedings and was therefore familiar with the
warnings and admonitions against waiving counsel.
[*P105] Notwithstanding the earlier colloquies, the
trial court conducted a waiver colloquy with Hundley
prior to the mitigation phase. The court again
explained to Hundley that he had a right to counsel;
that he faced possible sentences including the death
penalty and life without parole; that he would waive
certain appellate claims by waiving counsel for
mitigation, and that he would be held to the same
standard as any attorney. The court ensured that
Hundley
understood
the
difficulties
and
disadvantages of self-representation, that the court
would not function as his lawyer, and [**48] that the

55a
jurors may have a negative reaction to Hundley
representing himself. After these advisements,
Hundley told the court that his decision was freely
made and reflected his personal desire. Hundley
declined the court's offer to clarify any of the
advisements or to answer any questions. Hundley
signed a written waiver, and the court appointed
defense counsel to act as standby counsel.
[*P106] The transcript of the court proceedings
prior to the mitigation hearing corroborates the fact
that Hundley was not equivocal or emotional when
he asked to waive counsel:
MR. MEYERS: I would ask the court to allow Mr.
Hundley to address you directly for a moment.
THE COURT: That's fine.
HUNDLEY: Yes, Your Honor. At this time I would
like to represent myself.
***
THE COURT: It's not timely.
HUNDLEY: It's not timely?
THE COURT: Yes.
HUNDLEY: It's my constitutional right. I would
like to represent myself for the second phase.

56a
[*P107] Hundley's argument that his request was
not knowing, intelligent, and voluntary because he
was "likely under the duress of a personality
disorder" and was goaded by the trial court lacks
merit. Dr. Delaney Smith, M.D., the psychiatrist who
performed one of Hundley's pretrial competency
[**49]
evaluations, testified that Hundley's
antisocial-personality disorder did not affect his
competency or decisionmaking abilities. Dr. Smith
testified that "people with personality disorders still
have a conscious choice over how they interact." The
record does not support the claim that a severe
mental disorder or illness had any effect on
Hundley's requests to waive counsel.
[*P108] Finally, Hundley's claim that the trial
court's conduct during the hearing goaded him into
waiving counsel is specious. When Hundley initially
asked to waive counsel for mitigation, the trial court
told him that his request was untimely. Undeterred,
Hundley reasserted his request, to which the court
responded, "That's fine. You know what, I will." And
after Hundley expressed satisfaction with the court's
decision to grant his request, the court stated: "And
when you get convicted of death, I don't want to hear
about it." The trial court's comments, while
inadvisable, did not change Hundley's position on
self-representation.
[*P109] The record contradicts Hundley's attempt
to portray his request to waive counsel for the
mitigation hearing as an emotional response to the
jury's verdict, a result of his antisocial-personality

57a
[**50] disorder, and a product of the trial court's
conduct. Hundley was neither emotional nor
complaining about counsel when he made his
request, and he did not respond at all to the trial
court's sarcastic comments, showing his emotional
control. More than a week had passed between the
jury's verdict and Hundley's request, the jury was
not present during this discussion, the request was
not part of an inappropriate outburst, and Hundley
did not indicate that his request was due to
frustration with his counsel's conduct. See, e.g.,
State v. Baskin, 3d Dist. Allen No. 1-18-23, 2019Ohio-2071, ¶ 17, 137 N.E.3d 613 (holding that a
request to waive counsel was not unequivocal
because Baskin had "interjected in front of the jury"
that he wanted to fire counsel and because he had
"repeatedly made inappropriate responses to the
trial
court's
questions"
regarding
selfrepresentation); see also State v. Steele, 155 Ohio
App.3d 659, 2003-Ohio-7103, 802 N.E.2d 1127, ¶ 20
(defendant's requests for self-representation "were
more in the name of impulsive acts expressing
frustration with his first counsel than unequivocal
requests to represent himself").
[*P110]
We hold that Hundley knowingly,
intelligently, and voluntarily waived his right to
counsel for his mitigation hearing, and we reject
Hundley's third proposition [**51] of law.

D. Fundamental fairness of the mitigation hearing

58a
[*P111] In his fifth proposition of law, Hundley
argues that the trial court's comments prior to the
mitigation hearing were facetious and rendered the
mitigation hearing fundamentally unfair.
[*P112] HN12 A capital sentencing hearing is a
critical stage of any criminal proceeding and "must
satisfy the requirements of the Due Process Clause."
Gardner v. Florida, 430 U.S. 349, 358, 97 S.Ct. 1197,
51 L.Ed.2d 393 (1977). A sentencing hearing fails to
satisfy a criminal defendant's right to due process
when the trial court imposes a sentence "on the basis
of assumptions concerning [the defendant's] criminal
record which were materially untrue." Townsend v.
Burke, 334 U.S. 736, 741, 68 S.Ct. 1252, 93 L.Ed.
1690 (1948). During the sentencing hearing in
Townsend, the trial court recounted Townsend's prior
convictions, and with regard to one prior offense,
remarked: "1937, receiving stolen goods, a
saxophone. What did you want with a saxophone?
Didn't hope to play in the prison band then, did
you?" Id. at 740. In fact, the charge of receiving the
stolen saxophone had been dismissed. The United
States Supreme Court granted Townsend's petition
for a writ of habeas corpus, finding that the trial
court's "facetiousness," id., was part of the reason
that Townsend was deprived of due process during
sentencing. Id.
[*P113] Hundley's reliance [**52] on Townsend is
misplaced. As we have acknowledged, "[t]he
Townsend court carefully narrowed the scope of the
fairness standard that it applied, saying, 'It is not

59a
the duration or severity of this sentence that renders
it constitutionally invalid; it is the careless or
designed pronouncement of sentence on a foundation
so extensively and materially false, which the
prisoner had no opportunity to correct * * * that
renders the proceedings lacking in due process.'"
(Ellipsis in Arnett.) State v. Arnett, 88 Ohio St.3d
208, 218, 2000- Ohio 302, 724 N.E.2d 793 (2000),
quoting Townsend at 741.
[*P114] In contrast, the trial court's statement here
—"When you get convicted of death, I don't want to
hear about it"—though careless, clearly had to do
with the court's feelings about Hundley waiving
counsel for the mitigation hearing and did not form
the basis of Hundley's death sentence. See State v.
Buggs, 7th Dist. Mahoning No. 06 MA 28, 2007Ohio-3148, ¶ 14 ("While [the court's] remarks were
very pointed, and in some lights, very harsh, no
error in sentencing occurred which arises solely from
these remarks"). The court did not make its remarks
in front of the jury, and the record indicates that the
court based its sentence on the appropriate factors
outlined in the Revised Code, after the jury
recommended
the
death
sentence.
[**53]
Accordingly, Hundley has not demonstrated that the
trial court's comments deprived him of due process
during sentencing. Therefore, we reject proposition
of law No. 5.

E. Sentencing Issues

60a
1. Supplemental jury instruction during sentencing
deliberations
[*P115] The jury deliberated regarding sentencing
for less than one day. After approximately four and
one-half hours,2Link to the text of the note the jury
sent a note to the court: "Jury is at a standstill. 11 of
12 in agreement. 12 unwilling to change." Without
consulting the parties, the trial court provided the
jury with a supplemental instruction, stating, "I am
going to inform you you must deliberate until 4:30.
At 4:30 we will stop and go to the hotel." As
instructed, the jury resumed deliberations. Just over
30 minutes elapsed before the jury returned to the
courtroom and told the court it had reached a verdict
recommending that Hundley be sentenced to death.
[*P116] Hundley argues, in his sixth proposition of
law, that the trial court erred when it ordered the
jury to continue deliberating after it indicated that it
was at a "standstill." Hundley did not object when
the trial court instructed the jury to resume
deliberations and therefore has waived all but plain
error. [**54] HN13 To prevail, Hundley must show
that an error occurred, that the error was plain, and
that the error affected his substantial rights. State v.
Barnes, 94 Ohio St.3d 21, 27, 2002- Ohio 68, 759
N.E.2d 1240 (2002) (an error affects substantial
rights only if it affected the outcome of the trial).
However, after reviewing the record, we conclude
that the trial court did not commit any error, plain or
otherwise.

61a
[*P117]
HN14 Because "Ohio's death-penalty
statutes do 'not contemplate the possibility of a hung
jury in the penalty phase of a capital murder trial,'"
State v. Mason, 82 Ohio St.3d 144, 166-167, 1998Ohio 370, 694 N.E.2d 932 (1998), quoting State v.
Springer, 63 Ohio St.3d 167, 170, 586 N.E.2d 96
(1992), we have approved of the use of supplemental
instructions when a capital jury has become
"irreconcilably deadlocked" on the question of
whether to recommend a death sentence, id. at 167.
Therefore, an instruction "urging jurors to continue
deliberations to try to reach a unanimous penalty
verdict * * * do[es] not violate due process." Id.,
citing Lowenfield v. Phelps, 484 U.S. 231, 108 S.Ct.
546, 98 L.Ed.2d 568 (1988).
[*P118] As we have explained, a supplemental
instruction to a deadlocked jury "must not be
coercive by stressing that the jury must reach a
verdict." State v. Howard, 42 Ohio St.3d 18, 23-24,
537 N.E.2d 188 (1989). In addition, "the
supplemental instruction must be balanced and
neutral. It cannot * * * single out jurors in the
minority and urge them to reconsider their position."
Id. at 24. The trial court's supplemental instruction
in this case merely [**55] directed the jury to
continue deliberations until 4:30 p.m.; the
instruction was balanced, neutral, and noncoercive
and therefore appropriate under Howard.
[*P119] Hundley argues that by indicating that it
was at a standstill, the jury in his case was
"irreconcilably deadlocked," requiring the trial court

62a
to instruct the jurors to consider only the available
life sentences. He is incorrect. HN15 "No exact line
can be drawn as to how long a jury must deliberate
in the penalty phase before a trial court should
instruct the jury to limit itself to the life sentence
options or take the case away from the jury * * *.
Each case must be decided based upon the particular
circumstances." Mason at 167. Although the jury
stated that it was at a standstill after only
approximately four and one-half hours of
deliberation, the circumstances do not show that the
jury was irreconcilably deadlocked. The trial court
properly
instructed
the
jury
to
continue
deliberations. Accordingly, Hundley has not
demonstrated any error, much less an error that
affected his substantial rights. We reject proposition
of law No. 6.

2. Request to consider mercy as a mitigating factor
[*P120] The jury sent the following question to the
court during deliberations [**56] on sentencing: "Is
mercy considered a mitigating factor under Ohio
law?" The trial court, without consulting counsel,
told the jury that mercy is not a mitigating factor. In
his seventh proposition of law, Hundley challenges
the trial court's response to the jury's question.
[*P121] HN16 We have held that "[p]ermitting a
jury to consider mercy, which is not a mitigating
factor and therefore [is] irrelevant to sentencing,
would violate the well-established principle that the

63a
death penalty must not be administered in an
arbitrary, capricious or unpredictable manner."
(Emphasis added.) State v. Lorraine, 66 Ohio St.3d
414, 417, 613 N.E.2d 212 (1993). Hundley
acknowledges Lorraine's unambiguous holding but
argues that the decision should be reexamined and
overruled. Despite Hundley's contentions, the trial
court's response to the question asked by the jury is
a correct statement of Ohio law.
[*P122] In Hundley's view, because Ohio is a
"weighing" state, an instruction on mercy is required
to foreclose constitutional error. HN17 A "weighing"
state refers to a state "in which the only aggravating
factors permitted to be considered by the [capital]
sentencer were the specified eligibility factors."
Brown v. Sanders, 546 U.S. 212, 217, 126 S.Ct. 884,
163 L.Ed.2d 723 (2006). By contrast, a nonweighing
state permits the jury to consider aggravating
factors [**57] different from, or in addition to, the
eligibility factors. Id. Yet Hundley cites Kansas v.
Marsh, 548 U.S. 163, 126 S.Ct. 2516, 165 L.Ed.2d
429 (2006), and Kansas v. Carr,
U.S. , 136 S.Ct.
633, 193 L.Ed.2d 535 (2016), to support this claim.
However, neither case involved this question nor
held that an instruction on considering mercy in
mitigation is required. And we have recently
considered the same arguments and rejected them.
See State v. Wilks, 157 Ohio St.3d 359, 2018-Ohio1562, 114 N.E.3d 1092, ¶ 179, 224.
[*P123]
Because Hundley has offered no
meritorious justification for departing from this

64a
settled law, proposition of law No. 7 lacks merit.

F. Constitutional and international-law challenges
[*P124] In proposition of law No. 10, Hundley
raises several constitutional challenges to the death
penalty and the statutes governing its imposition in
Ohio, including that they constitute cruel and
unusual punishment, violate his rights to due
process and equal protection, are arbitrary and
vague, burden the right to a jury, prevent adequate
appellate review, and violate international law and
treaties. We have consistently rejected each of these
arguments. See, e.g., State v. Kirkland, 140 Ohio
St.3d 73, 2014-Ohio-1966, 15 N.E.3d 818, ¶ 106, 109110, 113, 116-117, 120; State v. Jenkins, 15 Ohio
St.3d 164, 168-173, 15 Ohio B. 311, 473 N.E.2d 264
(1984).
[*P125] In proposition of law No. 9, Hundley
contends that Ohio's death-penalty statutes violate
the Sixth Amendment right to a jury trial as
construed in Hurst v. Florida,
U.S.
, 136 S.Ct.
616, 193 L.Ed.2d 504 (2016). We have rejected this
argument. State v. Mason, 153 Ohio St.3d 476, 2018Ohio-1462, 108 N.E.3d 56. HN18 And the United
States Supreme Court has recently confirmed that
neither [**58] Hurst nor Ring v. Arizona, 536 U.S.
584, 122 S.Ct. 2428, 153 L.Ed.2d 556 (2002),
requires jury weighing of aggravating and mitigating
circumstances:

65a
[A] jury must find the aggravating circumstance
that makes the defendant death eligible. But
importantly, in a capital sentencing proceeding just
as in an ordinary sentencing proceeding, a jury
(opposed to a judge) is not constitutionally required
to weigh the aggravating and mitigating
circumstances or to make the ultimate sentencing
decision within the relevant sentencing range.
McKinney v. Arizona,
206 L.Ed.2d 69 (2020).

U.S.

, 140 S.Ct. 702, 707,

[*P126]
We therefore summarily overrule
proposition of law Nos. 9 and 10. See generally State
v. Poindexter, 36 Ohio St.3d 1, 520 N.E.2d 568
(1988), syllabus.

G. Cumulative error
[*P127] In his eighth proposition of law, Hundley
argues that cumulative error during the proceedings
requires this court to reverse his conviction and
grant him a new trial. But because Hundley has not
demonstrated that any error occurred during his
capital trial, his argument is not meritorious. See
State v. Mammone, 139 Ohio St.3d 467, 2014-Ohio1942, 13 N.E.3d 1051, ¶ 148, quoting State v.
Garner, 74 Ohio St.3d 49, 64, 1995- Ohio 168, 656
N.E.2d 623 (1995) (cumulative-error doctrine does
not apply because the appellant cannot point to
"'multiple instances of harmless error'"). We reject
proposition of law No. 8.

66a

IV. INDEPENDENT SENTENCE EVALUATION
[*P128] HN19 We must independently review the
death
sentence
for
appropriateness
and
proportionality. R.C. 2929.05(A). In conducting this
review, we must [**59] determine whether the
evidence supports the jury's finding of aggravating
circumstances,
whether
the
aggravating
circumstances outweigh the mitigating factors, and
whether Hundley's death sentence is proportionate
to those affirmed in similar cases. Id. We consider
these issues de novo. State v. Adams, 144 Ohio St.3d
429, 2015-Ohio-3954, 45 N.E.3d 127, ¶ 272.

A. Aggravating Circumstance
[*P129]
The jury found Hundley guilty of
aggravated murder and the capital specification
associated with that charge. As an aggravating
circumstance, therefore, the jury considered that
Huff's murder "was part of a course of conduct
involving the purposeful killing of or attempt to kill
two or more persons." R.C. 2929.04(A)(5).
[*P130]
Sufficient evidence established that
Hundley attempted to murder Mrs. Johnson. Mrs.
Johnson's testimony regarding Hundley's assault on
her with a hammer and a knife and by dousing her
with alcohol to start a fire constitutes sufficient
evidence of attempted murder. Therefore, sufficient

67a
evidence supported the jury's findings that Hundley
murdered Huff as part of a course of conduct
involving the purposeful killing of or attempt to kill
two or more persons.

B. Mitigating Factors
[*P131] We must weigh the above aggravating
circumstance against any mitigating evidence about
"the nature [**60] and circumstances of the offense"
and Hundley's "history, character, and background."
R.C. 2929.04(B). HN20 In addition, we must consider
and weigh any evidence of the mitigating factors
specifically listed in R.C. 2929.04(B)(1) through (7).

1. Evidence at the mitigation hearing
[*P132] As discussed in connection with proposition
of law No. 3, Hundley represented himself at the
mitigation hearing and chose to offer no mitigating
evidence. He declined to make an opening statement
and waived his right to make an unsworn statement.
Although Hundley made a closing argument, he used
it to contest the state's evidence, accuse the state of
manipulating evidence, and deny that he murdered
Huff. In allocution, Hundley stated only that he
intended to appeal his conviction and death
sentence.

2. Mitigating evidence in the record

68a

[*P133] Although Hundley presented no evidence
during the mitigation hearing, under R.C.
2929.05(A), we "shall review and independently
weigh all of the facts and other evidence disclosed in
the record." The record in this case contains two
pretrial competency reports that were prepared in
order to assist the trial court in determining whether
Hundley was competent to stand trial. HN21 To
fulfill our duty under R.C. 2929.05(A), we will
consider an unsealed competency report [**61] that
is part of the record for any mitigating evidence
contained in it. State v. Clinton, 153 Ohio St.3d 422,
2017-Ohio-9423, 108 N.E.3d 1, ¶ 255.

a. Dr. Thomas G. Gazley's competency report
[*P134]
Pursuant to a trial-court order, on
February 4, 2016, at the Mahoning County Justice
Center, Thomas G. Gazley, Ph.D., evaluated Hundley
to determine whether he was competent to stand
trial. Dr. Gazley's report included information about
Hundley's family background.
[*P135] The report stated that Hundley was born
on October 8, 1969, in Washington, D.C., and lived
there most of his life. Hundley had two brothers, his
parents were married when he was born, and he did
not report any parental abuse or neglect. His father
died of a heart condition in 1991, and his mother
died from cancer in 2014. Hundley had never been
married, and to his knowledge, had no children.

69a
Hundley had family in Youngstown, Ohio, whom he
occasionally visited.
[*P136] Hundley dropped out of high school in the
tenth grade because, he claimed, he "was making too
much money as a drug dealer." He later earned a
high-school-equivalency certificate ("GED"), attended
community college, and became certified as an EMT
and as a heating, ventilation, and air-conditioning
technician. He worked as an EMT for a private
ambulance [**62] company in Washington, D.C.,
and later worked for a heating company.
[*P137] Hundley then graduated from a truckdriving school and started a transportation business
that he named after his mother. Although he
reported that the business was successful, he shut it
down in June 2015 and went to Youngstown. He
apparently intended to return to Washington, D.C.,
but he was convicted in Ohio on a falsification charge
and a misdemeanor drug offense. He was serving the
jail sentence imposed for those crimes at the time of
Dr. Gazley's evaluation.
[*P138] Hundley had a prior criminal record both
as a juvenile and an adult. He reported that at a
very young age, he helped his brother in a breaking
and entering. He was also charged as a juvenile for
selling drugs and was placed on probation. In 2000,
Hundley was convicted in Washington, D.C., of a sex
offense that he described as nonconsensual "sexual
touching" and was sentenced to 2 years in prison. He
served 14 months followed by 2 years of probation.

70a

[*P139] Hundley had no physical limitations, and
Dr. Gazley reported that during the evaluation,
Hundley was in good behavioral control, he
cooperated with the evaluation, and he was
generally polite. He reported no history [**63] of
treatment for or diagnosis of mental illness, but he
did state that his mother had been diagnosed with
schizophrenia and that his older brother had
something, that he was a menace, and that he had
been locked up a lot.
[*P140] During the evaluation, Hundley spoke in a
clear and coherent manner, gave "goal directed and
relevant" responses to questions, and did not display
any disassociation or delusional themes. According to
Dr. Gazley, "[t]here was no current evidence of
thought disorder either in form or in content."
Hundley's "emotional expression was full range and
it was mood congruent," and he reported no
instances of depression and no suicidal ideation or
attempts. Hundley did not experience any
hallucinations, current or historical, and was
oriented to person, place, time, and situation. He
was not distracted during the evaluation, and he
displayed a good memory for recent and remote
events.
[*P141] Dr. Gazley estimated that Hundley's verbal
intelligence was average, noting that Hundley had
completed his GED and taken classes at a
community college. Dr. Gazley concluded that
Hundley presented no current symptoms of mental

71a
illness that would interfere with his ability to
participate in the [**64] legal process, that he was
not intellectually impaired, and that he was in good
behavioral control.

b. Dr. Smith's evaluation and report
[*P142] On September 22, 2016, pursuant to the
trial court's order, Hundley was admitted to TVBH
for evaluation of his mental condition and
competency. See R.C. 2945.371. HN22 R.C. 2945.371,
among others, governs "the procedures for
evaluating the mental condition of a defendant who
has raised the issue of competency or entered a plea
of [not guilty by reason of insanity]." State v. Harris,
142 Ohio St.3d 211, 2015-Ohio-166, 28 N.E.3d 1256,
¶ 23. On October 14, 2016, Dr. Smith evaluated
Hundley to assess his mental status and his capacity
to understand the nature and objectives of the
proceedings against him and to assist in his defense.
Hundley claimed both that he smoked marijuana
and that he never used it and claimed that he drank
only a 12 pack of beer a year.
[*P143] Approximately one-half of Dr. Smith's
report summarizes Hundley's stay at TVBH.
Hundley was uncooperative while he was at the
facility. The psychiatrist who interviewed him upon
admission observed that he "appeared to be
malingering memory problems and 'voices'" and that
he was angry at his attorneys for sending him there.
He claimed that a pill given to him at the jail caused

72a
him to hear voices, [**65] but he refused to answer
any questions about the voices and told the
psychiatrist, "I'm trying to block that shit out." He
was evasive in answering questions, at times stating
he used marijuana as much as he could but then
immediately claiming he had never used it. Dr.
Smith reported that the psychiatrist had written
that Hundley "'had no delusions, no disorganization
in thinking, no manic, depression, or anxiety
symptoms, and did not appear to be responding to
any internal stimuli.'"
[*P144] Hundley's TVBH records indicate that at
admission, he was diagnosed with "Antisocial
Personality Disorder; Rule out malingering of
mental illness and memory deficits; Tobacco Use
Disorder, severe, currently in a controlled
environment; rule out other substance use disorder,
hypertension, history of back injury in 2003 with
chronic pain; history of burns to chest and left cheek
in 2015." While on the unit, he presented as angry
but did not have any physical confrontations with
peers or staff, and although hostile, he did not
exhibit behaviors or signs of psychosis. The staff at
TVBH did not witness any signs or symptoms of
mental illness while Hundley was in their care. On
October 4, 2016, staff noted [**66] that with respect
to his irritability, he tended to be abrupt and refused
to engage with staff other than when he was
expressing his needs or voicing complaints. He
presented as entitled and refused to attend groups.
However, staff stated that there had been "no
evidence of a major affective disorder, psychosis or

73a
thought disorder." A note from October 12, 2016,
stated that he had made some claims about being
beat up but told police that he had lied about it.
[*P145]
According to Dr. Smith, during her
evaluation, Hundley "was cooperative only when it
suited him such as to discuss his dislike of food
(which he was eating without issues during the
interview) or complain about certain staff." Dr.
Smith said that when she asked specific questions,
he typically responded with "next" or "I don't know"
or just stared at her. Hundley acknowledged that he
was facing charges related to Erika Huff. He refused
to name the exact charges but stated that his "life
was on the line." He refused to discuss the events
leading up to the crime, and when asked, he got very
irritable, yelled that he was done, and stormed out of
the room.
[*P146] Dr. Smith's report notes that Hundley "had
no prior history of psychiatric [**67] outpatient or
inpatient treatment and was never on psychotropic
medications." To a reasonable degree of medical
certainty, Dr. Smith opined:
[Hundley] does not have a mental illness but * * *
his presentation is best explained by a diagnosis of
Antisocial Personality Disorder. Criteria for
antisocial personality disorder include an enduring
pattern of disregard for and violation of the rights of
other[s] since youth which often involved breaking
the law. * * *

74a
* * * [A]ntisocial personality disorder is associated
with repeated deceit and a lack of empathy as well
as hostility, anger, irritability and impulsivity which
is consistent with the documentation of his behavior
over the course of his hospitalization.

3. Statutory mitigating factors, R.C. 2929.04(B)(1)
through (6)
[*P147] The mitigating factors specified in R.C.
2929.04(B)(1) through (6) are inapplicable. There
was no evidence that the victim induced or
facilitated the murder and no evidence of duress,
coercion, or provocation. And despite the fact that on
the night of the offense Hundley told Heard that he
needed mental help, there is no evidence of any
mental disease or defect. R.C. 2929.04(B)(1) through
(3). Because Hundley was 46 at the time of the
murder, under R.C. 2929.04(B)(4), youth is not a
factor. See State v. Frazier, 61 Ohio St.3d 247, 258,
574 N.E.2d 483 (1991). Hundley had documented
prior [**68] criminal convictions and a juvenile
adjudication. Finally, the degree of participation
under R.C. 2929.04(B)(6) is not a factor: Hundley
was the sole offender.

4. Nature and circumstances of the offense
[*P148] The nature and circumstances of the
aggravated murder offer nothing in mitigation.

75a
Hundley severely beat and strangled Huff, who
suffered from an advanced state of multiple sclerosis
and who had opened her home to him. He then lit
her body on fire. He savagely beat Huff's mother,
Mrs. Johnson, with a hammer, and after placing her
unconscious body next to the body of her dead
daughter, he attempted to light her on fire as well.
These horrific crimes lack any mitigating features.

5. History, character, and background
[*P149] Hundley did not report any family history
of substance abuse or parental abuse and neglect.
Although he dropped out of high school during his
sophomore year, he later got a GED and multiple
professional certifications. Hundley started a
business and held multiple jobs, but he was not
employed at the time of the offense.

6. Remorse
[*P150] Hundley declined to give an unsworn
statement. However, he did make a closing argument
at the mitigation hearing, during which he accused
the prosecutors of manipulating [**69] evidence,
contested his conviction, and rued his decision to
have counsel for the guilt phase. And in allocution,
Hundley simply stated that he intended to appeal
his conviction and death sentence. He exhibited no
remorse for his conduct.

76a

7. The weight of mitigating factors
[*P151] There is nothing in Hundley's background
that is mitigating, and he presented no mitigating
evidence. The available record evidence suggests
that Hundley has generally lived a life devoid of
significant trauma.
[*P152]
Mitigating factors are nonexistent.
Therefore, we conclude that the aggravating
circumstance in this case significantly outweighs the
mitigating factors beyond a reasonable doubt.

C. Proportionality
[*P153] We find that the death penalty in this case
is appropriate and proportional, when compared to
other cases in which the death penalty was imposed
for a course-of-conduct specification involving a
murder and an attempted murder. R.C. 2929.05; see,
e.g., Wilks, 154 Ohio St.3d 359, 2018-Ohio-1562, 114
N.E.3d 1092, at ¶ 250 (upholding death sentence for
one murder and two attempted murders, and citing
cases); State v. Martin, 151 Ohio St.3d 470, 2017Ohio-7556, 90 N.E.3d 857 (one murder and one
attempted murder); State v. Jackson, 141 Ohio St.3d
171, 2014-Ohio-3707, 23 N.E.3d 1023 (one murder
and one attempted murder); State v. Leonard, 104
Ohio St.3d 54, 2004-Ohio-6235, 818 N.E.2d 229 (one
murder and one felonious assault).

77a
[*P154] For the foregoing reasons, we affirm the
convictions and death sentence.
Judgment affirmed.
O'Connor, C.J., and French, Fischer, Dewine, and
Stewart, JJ., concur.
Donnelly, J., concurs in judgment only.
Footnotes
1
Hundley does not contend that the trial court
erred by allowing him to represent himself during
the suppression hearing.
2
During this time, the jury returned to the
courtroom several times with questions and for
breaks.

